BECU CONSUMER LENDING RATES & RELATED DISCLOSURES –
CREDIT CARDS
Boeing Employees’ Credit Union (BECU) is one of the nation’s leading not-for-profit credit unions. We are committed to
offering better rates, fewer fees and more affordable financial services.
Learn more at becu.org.
Rate Schedule Effective August 1, 2020

BECU Cash Back Visa®
INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate
(APR) for Purchases

0.00% Introductory APR for twelve (12) months from date of account opening.
After that, your APR will be 9.90% to 15.90%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

0.00% Introductory APR for twelve (12) months from date of transfer when transfers are
completed within 90 days of account opening.
After that, your APR will be 9.90% to 15.90%, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.

APR for Cash Advances

9.90% to 15.90%, based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.

How to Avoid Paying
Interest on Purchases

Your due date is at least 23 days after the close of each billing cycle. We will not charge
you interest on purchases if you pay your entire balance by the due date each month.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
www.consumerfinance.gov/learnmore

FEES
Annual Fee

None

Transaction Fees
Balance Transfer
Cash Advance
Foreign Transaction

None
None
None

Penalty Fees
Late Payment
Returned Payment

Up to $25
Up to $25

How We Will Calculate
Your Balance

We use a method called “average daily balance (including new purchases).”
See your Agreement for more details.

How We Will Calculate
Your Rate

After any applicable introductory rate period ends, we will establish a margin of 6.65% to
12.65% based on your creditworthiness, and add this margin to the Prime Rate to
determine your APR. Your APR and margin will be stated in a Credit Voucher provided to
you if you open a credit card account under your Credit and Security Agreement.

Other Important Credit
Card Terms and
Conditions

All terms, including fees and the APRs for new transactions, may change after account
opening in accordance with the Credit and Security Agreement and applicable law.

SPECIAL NOTICE

If you pay your credit card balance in full each month, you do not pay interest on your
purchases. This is called a grace period. Please note that once your 12-month 0%
introductory purchase APR ends, you will pay interest on any purchases (including
recurring automatic payments) unless you pay your entire balance (including both
transferred balances and purchase balances) in full.

BECU 461

Rates and Terms in effect as of August 1, 2020 and are subject to change without notice.

BECU CONSUMER LENDING RATES & RELATED DISCLOSURES –
CREDIT CARDS
Rate Schedule Effective August 1, 2020

BECU Visa®
INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate
(APR) for Purchases

0.00% Introductory APR for twelve (12) months from date of account opening.
After that, your APR will be 6.90% to 12.90%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

0.00% Introductory APR for twelve (12) months from date of transfer when transfers are
completed within 90 days of account opening.
After that, your APR will be 6.90% to 12.90%, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.

APR for Cash Advances

6.90% to 12.90%, based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.

How to Avoid Paying
Interest on Purchases

Your due date is at least 23 days after the close of each billing cycle. We will not charge
you interest on purchases if you pay your entire balance by the due date each month.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
www.consumerfinance.gov/learnmore

FEES
Annual Fee

None

Transaction Fees
Balance Transfer
Cash Advance
Foreign Transaction

None
None
None

Penalty Fees
Late Payment
Returned Payment

Up to $25
Up to $25

How We Will Calculate
Your Balance

We use a method called “average daily balance (including new purchases).”
See your Agreement for more details.

How We Will Calculate
Your Rate

After any applicable introductory rate period ends, we will establish a margin of 3.65% to
9.65% based on your creditworthiness, and add this margin to the Prime Rate to determine
your APR. Your APR and margin will be stated in a Credit Voucher provided to you if you
open a credit card account under your Credit and Security Agreement.

Other Important Credit
Card Terms and
Conditions

All terms, including fees and the APRs for new transactions, may change after account
opening in accordance with the Credit and Security Agreement and applicable law.

SPECIAL NOTICE

If you pay your credit card balance in full each month, you do not pay interest on your
purchases. This is called a grace period. Please note that once your 12-month 0%
introductory purchase APR ends, you will pay interest on any purchases (including
recurring automatic payments) unless you pay your entire balance (including both
transferred balances and purchase balances) in full.

Statement of the Military Annual Percentage Rate (MAPR)
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer
credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The costs associated with
credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other
than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than certain
participation fees for a credit card account). Please call 888-244-1695 for more information.

BECU 461

Rates and Terms in effect as of August 1, 2020 and are subject to change without notice.

